   •   noncompliance with CPB requirements for establishing procedures for explaining
       the station’s compliance with the five Act requirements for Open Meetings, Open
       Financial Records, Community Advisory Board (CAB), Equal Employment
       Opportunity (EEO), and Donor Lists and Political Activities.

Overall, we found a lack of adequate oversight and controls at the station to ensure
compliance with CPB’s requirements for activities performed by third party providers.
Specifically, we found that the Board of Directors (Board) and station management did
not maintain adequate control over its finances and compliance requirements to ensure
CPB grant funds were spent on allowable activities or expenditures were adequately
documented for the CSG, Digital, and ISA grants.

In response to the draft report, KNON officials disagreed with the questioned costs for
the digital grant, related party transactions, and the internet streaming costs. They also
implemented corrective actions to discretely account for CPB grant revenues and
expenditures, implemented operating procedures to comply with Communication Act
requirements, and instituted Board controls to oversee CPB grant requirements.
KNON’s written response to the draft report is attached in Exhibit G.

This report presents the conclusions of the OIG. The findings and recommendations
contained in this report do not necessarily represent CPB management’s final position
on these matters. Accordingly, this report contains recommendations the OIG believes
would be appropriate to resolve these findings.

In accordance with CPB audit resolution procedures, CPB management is responsible
for determining the corrective actions to be taken. Based on KNON’s response to the
draft report, we consider recommendations 1(a) – 1(c), 3(b) – 3(d), and 6(a) – 6(c)
resolved but open pending a final management decision by CPB on the
recommendations. We consider recommendations 2(a) – 2(e), 3(a), and 5 unresolved,
pending a CPB management decision.


                                   BACKGROUND

KNON is a community radio station located in Dallas, Texas. It is licensed to the
AGAPE Broadcasting Foundation, Inc. (AGAPE). KNON is a listener-supported radio
station, deriving its main source of income from on-air pledge drives and from
underwriting or sponsorships by local small businesses. KNON’s format is music and
talk, with diverse programming.

KNON’s independent financial audit identified nine related parties in its notes to the
financial statements. These included the Association of Community Organizations for
Reform Now (ACORN), Citizens Consulting, Inc. (CCI) and the Affiliated Media
Foundation Movement, Inc. (AM/FM), which all provided administrative services to
KNON. CCI was KNON’s accounting service provider and AM/FM personnel served as
our audit coordinator.

                                            2
KNON received a variety of other business services from other related organizations1
for internet, telephone, health benefits, office space, etc. Currently, KNON has
transitioned from CCI to another accounting service in Dallas, Texas.

CSG award amounts are determined by the NFFS reported to CPB by stations on its
AFR. The CSG calculation process starts with separate amounts appropriated for the
television and radio CSG pools adjusted by the base grant, distance and local service
grant amounts. The funds that remain are called the Incentive Grant Pools, one is for
television and the other is for radio. The Incentive Rate of Return (IRR) is calculated by
dividing the Incentive Grant Pools by the total amount of NFFS claimed by all television
and radio stations. The IRR is then multiplied by the station’s reported NFFS to
calculate the incentive award amount of the station’s total CSG. There is a two year lag
between the reported NFFS and CPB’s calculation of the fiscal year’s CSG award
amount. CPB used the NFFS claimed on KNON’s FY 2006 AFR to determine the
amount of its FY 2008 CSG award.

In 2005 CPB awarded KNON an ISA Grant for $15,000 to help rural and minority
stations use state-of-the-art web technology to increase service to their listeners. CPB’s
vision was to improve the station’s web presence to enhance station outreach, deepen
community relationships, improve public transparency and accountability, and offer
listeners an easy and secure way to support stations financially. The Grant was
amended in 2006, modifying the grant period to October 1, 2004 to December 31, 2007.
The Grant was to be paid out in two installments; the first $10,000 payment was made
in March 2005 to cover expenses for the period October 1, 2004 - December 31, 2006.
The second payment of $5,000 was made in October 2008 to cover calendar year 2007
expenses.

CPB awarded a Digital Conversion Fund Grant of $85,000 ($80,000 in cash and $5,000
iBiquity credit) to KNON in November 2005 to purchase and install digital equipment by
November 2006, with KNON providing matching funding of $82,031. The station could
have selected any combination of eligible equipment and related items listed in the
grant agreement available from vendors that CPB identified as providing discounts to
stations.

CPB’s FY 2008 CSG award to KNON was $103,839. This award included $74,929 in
unrestricted CSG funds and $28,910 in restricted funds. Restricted funds were to be
spent on the production, acquisition, or distribution of national programming. The FY
2008 CSG award could be spent over a two year period from October 1, 2007 to
September 30, 2009. CPB annually awards new CSGs to stations, so the FY 2008
grant’s spending period overlapped the first year of the FY 2009 CSG grant period.



1
  In addition to the three organizations identified above, the notes to the financial statements identified the
following related parties: ACORN Housing Corporation, COUNCIL Health Plan (CHP), COUNCIL
Beneficial Association (CBA), Peoples Equipment Resource Corporation (PERC), Arkansas Broadcasting
Foundation, Inc., and the 4415 San Jacinto Street Corporation.

                                                       3
CPB’s cash payments for the ISA Grant, Digital Grant, and the FY 2008 CSG are
identified on Exhibit A. KNON reported total revenues of $694,938 on its 2008 AFR,
Exhibit B, and $445,266 as NFFS, Exhibit C. KNON’s 2008 AFR covered the period
January 1, 2008 - December 31, 2008.


                               RESULTS OF REVIEW
We examined management’s assertions of compliance with CPB’s CSG agreement
terms, Financial Reporting Guidelines, Certification of Eligibility requirements, and Act
requirements for FY 2008. We also examined KNON’s CSG, Digital, and ISA
expenses. Management is responsible for KNON’s compliance with CPB’s
requirements. Our responsibility is to express an opinion on management’s assertions
about its compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards, for Attestation engagements, and accordingly, included examining, on a test
basis, evidence of KNON’s compliance with those requirements and performing such
other procedures as we considered necessary. We believe that our examination
provides a reasonable basis for our opinion. Our examination does not provide a legal
determination of KNON’s compliance with specified requirements.

Our examination disclosed the following issues of material noncompliance with CPB’s
CSG, Digital, and ISA grant agreement requirements, Certification of Eligibility
requirements, and Act requirements, applicable to the period ending September 30,
2008.

   •   Questioned $87,741 in CPB grant expenditures, including, $54,292 in
       unallowable Digital funds (68 percent of Digital grant); $19,778 in FY 2008
       related party expenses for administrative support without adequate
       documentation (19 percent of CSG grant); and $13,671 in unallowable or
       undocumented ISA expenses (91 percent of ISA grant).
   •   Overpaid KNON $3,005 under the Digital grant, reported as funds put to better
       use.
   •   CCI’s accounting system (KNON’s accounting service provider) did not discretely
       account for the receipt and expenditure of CSG grant funds in accordance with
       CPB grant recordkeeping requirements to facilitate our audit. The lack of
       discrete accounting represents a scope limitation, which prevented us from
       verifying that CPB’s CSG grant funds were expended within the two year grant
       spending period. Further, the lack of grant accounting did not facilitate our audit
       of the Digital and ISA grant expenditures.
   •   KNON was not in full compliance with CPB requirements for establishing
       operating procedures explaining how it complied with the five requirements of the
       Act for Open Meetings, Financial Records, CAB, EEO, and Donor Lists and
       Political Activities.


                                            4
In our opinion, because of the effect of the material noncompliance issues described
above, KNON has not complied with the aforementioned requirements for the period
ending September 30, 2008.


                      FINDINGS AND RECOMMENDATIONS

Lack of Discrete Accounting
During our audit period, KNON’s accounting service provider, CCI, did not discretely
account for the receipt and expenditures of CSG funds in accordance with CPB grant
recordkeeping requirements. Further, the lack of grant accounting for the CPB Digital
and ISA grants prevented us from tracing KNON’s final financial reports submitted to
CPB to its accounting records. Station and CCI officials had to identify individual
vendors and invoices to support charges incurred under the Digital and ISA grants. The
lack of discrete accounting for CSG revenues and expenditures represents a scope
limitation, as discussed further in our Scope and Methodology section, Exhibit F.

CPB’s General Provisions and Eligibility Criteria for Radio CSGs, Section 10.B. Record
Keeping and Audit Requirements, require stations to provide discrete accounting and
proper documentation to support all CSG expenditures. It further requires that:

    •   CSG funds which cannot be accounted for because of the recipient’s failure to
         comply with this requirement may be subject to repayment;
    •   grant recipients must maintain financial records that facilitate an effective audit;
         and
    •   records must be retained for no less than three years after the end of the
         expenditure period.

While a separate CPB bank account had been established to initially deposit and
account for CPB funds, CPB revenues were commingled with other revenues in either a
Grants-unrestricted or a Grants-restricted income account in the accounting system.
The commingling of multiple years of CPB funding in either the unrestricted or restricted
grant accounts did not provide an audit trail to enable us to verify that annual CSG grant
awards were spent within the two year grant spending period authorized in the grant
agreement. Further, since CPB expenses were also not separately identifiable in the
accounting system’s expense accounts we could not match CPB revenues by fiscal
year to corresponding expenditures.

Additionally, because we could not identify ISA or Digital grant expenditures in the
accounting system we had to have the auditee identify specific grant expenditures. As
a result, financial records were not maintained by CCI to facilitate an effective audit of
CPB’s grant funds.

As previously mentioned, CCI maintained KNON’s financial records. These records
included four bank accounts: 1) a Bank of America account used by the station to

                                               5
deposit local contributions; 2) a Whitney Broadcasting Foundation account, which CCI
used as a general operating account to make broadcasting disbursements; 3) a “CPB”
account used to make CPB restricted fund disbursements; and 4) a digital account.
Although CCI had established a separate “CPB” bank account to segregate CPB funds,
other non-CPB funds were also deposited into this account.

During our audit period a $40,000 contribution received from a private donor to fund the
digital conversion project was initially deposited into the CPB bank account. This
$40,000 contribution and an additional $43,500 in CPB funds were subsequently
transferred to the digital bank account in January 2008. Another $88,798 from the CPB
account was transferred to the Whitney Broadcasting Foundation account to pay
operating expenses.

Since CPB CSG, Digital, and ISA funds were deposited into the CPB bank account, we
attempted to use disbursements from the CPB bank account to identify FY 2008 CSG
expenditures. However, only $32,348 in expenditures was made from this account,
considerably less than the $103,839 in CSG funding awarded in FY 2008. The balance
of the disbursements made from this account, totaling $172,298, were large cash
transfers to the Whitney Broadcasting Foundation account and the AGAPE/Digital
account. Accountability over the CPB funds was lost for the $88,798 transferred to the
Whitney Broadcasting Foundation account because they were commingled with
revenues from other sources in this bank account.

Likewise, we initially attempted to use disbursements from the digital bank account to
identify Digital grant expenditures. However, KNON officials subsequently identified
additional Digital grant expenditures that were not disbursed from either the digital bank
account or the CPB bank account. We also identified that $20,000 was transferred from
the digital bank account to the Whitney Broadcasting Foundation account, where CPB
accountability was lost because these funds were commingled with other revenues.

Discussions with CCI officials and our audit coordinator disclosed that this was the way
CCI had performed its accounting services. They stated that having a separate CPB
bank account was adequate for their needs.

At the beginning of our fieldwork, KNON officials acknowledged their dissatisfaction with
CCI’s performance and were engaged in finding another accounting service provider to
perform its accounting functions, which subsequently occurred in April 2009. Regarding
CCI’s performance, KNON officials said that CCI had represented to KNON that they
had been accounting for the receipt and expenditures of CPB funds in accordance with
CPB grant recordkeeping requirements. Further, CCI had been known to manage
grants for other entities from a variety of sources and there were no known problems.
KNON felt CCI had the experience necessary to properly account for CSG grant funds.
It was only in recent years that doubts about CCI’s abilities had surfaced.

Further, KNON believed that CPB restricted funds were maintained in the CPB account,
where all National programming expenses were tracked. Non-restricted CPB funds

                                            6
were transferred into the general operating account and were only used to pay
broadcasting expenses. Additionally, they said that the National Program Director’s
expenses were also paid out of this general operating account.

   Recommendations

1) We recommend that CPB require KNON to:

   a) Comply with CPB’s discrete accounting requirements and maintain sufficient
      financial records to facilitate an effective audit of CPB revenues and
      expenditures. Such records should discretely account for all CSG income and
      expenditures against grants awarded on a fiscal year basis and include tracking
      expenditures over the two year grant period.

   b) Reconstruct its accounting records for FY 2008 – 2010 to identify unrestricted
      and restricted CSG expenditures against CPB revenues on a fiscal year
      authorization basis and report to CPB whether all the CSG funds were spent
      within the two year grant spending period.

   c) Annually report to CPB the revenues received by grant (unrestricted and
      restricted), opening cash balances, expenditures, and ending cash balances as
      of September 30th of each year.

   Management Response

KNON officials provided the following responses to these recommendations.

Recommendation 1(a): KNON officials said they understood the need to have
accounting records that facilitate an audit of the revenue and expenditures of the CPB
grants. After changing to their new accounting company in April 2009, CPB grant funds
received have been deposited into separate bank accounts, one for restricted funds and
one for unrestricted funds. Only CPB expenditures are paid out of these accounts.
Beginning in July 2010 the accounting company provided KNON with a monthly report
of CPB revenues and expenditures by grant and fiscal year.

Recommendation 1(b): KNON officials reconstructed its accounting records of CPB’s
FY 2008 and FY 2009 CSGs and submitted them to CPB. Additionally, KNON asked its
accounting company to retroactively add class codes to each revenue and expenditure
(as identified in the reconstructed reports) in the general ledger to identify it as
Restricted or Unrestricted and by the Fiscal Year of the Grant to which it relates. With
these class codes, any future audit of these past fiscal years would be facilitated.

Recommendation 1(c): KNON officials said they will report to CPB every October the
revenues received by grant (CSG unrestricted, CSG restricted, and any special grants),
opening cash balances, expenditures, and ending cash balances as of September 30th
of each year.

                                           7
    OIG Review and Comment

Based on KNON’s response, we consider recommendations 1(a), (b) and (c) resolved
but open pending CPB’s final decision on KNON’s corrective actions.

Questioned CPB Expenses
Based on our examination of KNON expenses, we questioned $87,741 in CPB
expenditures as summarized in Exhibit D. This total included $54,292 in unallowable
Digital expenditures; $19,778 in undocumented related party expenses for
administrative support; and $13,671 in unallowable or undocumented ISA expenses.
Additionally, we identified $3,005 that was overpaid to KNON (reported as funds put to
better use) when KNON was reimbursed the full CPB grant amount of $80,000 instead
of CPB’s portion of total net eligible costs of $76,995. Our audit of CPB expenditures
was complicated by the lack of discrete accounting of CSG revenues and expenditures,
as previously discussed in our finding on discrete accounting. This level of questioned
costs is materially noncompliant with CPB grant requirements.

       Lack of Accountability Over Digital Radio Conversion Grant Funds

KNON submitted a final financial report dated October 9, 2008, reporting total eligible
equipment costs of $152,731 (net total eligible equipment cost of $147,731). However,
based on information provided by KNON officials and our review of the accounting
records, we could only identify $76,121 in expenditures through September 30, 2008.
Our review of the $76,121 identified only $46,333 in allowable grant expenditures
(CPB’s portion represented $22,703).2 As a result, we have questioned $54,2923 of the
$80,000 CPB grant paid to KNON. Additionally, we identified that the grant agreement
period was not modified to reflect delays in purchasing and installing the equipment,
and CPB Digital revenues were not properly recorded in the accounting records in a
timely manner.

Under the Act, public broadcasting entities that receive funds from CPB must establish
and maintain adequate accounting records and supporting documentation. CPB’s
Digital agreement stated that, “Grantee shall keep such records as may be reasonably
necessary to fully disclose the Total Eligible Project Costs . . . and such other records
as will facilitate an effective audit.” Further, grant reporting requirements specified that
the final report should include actual costs and expenditures incurred to complete the
digital conversion project.

KNON’s final digital report misrepresented actual costs and expenditures incurred to
date through September 30, 2008, by approximately $71,610. KNON’s final report did


2
  CPB’s portion calculated as follows: $80,000 (CPB cash)/$162,031 (total cash contributions) = 49
percent. $46,333 x 49 percent = $22,703.
3
  $80,000 (CPB payments) - $22,703 (allowable CPB costs) = $57,297 - $3,005 (CPB overpayment) =
$54,292 (questioned costs).

                                                  8
not represent actual costs incurred to date, but projected expenditures through June
2013 to purchase the equipment under a lease purchase agreement.

      Equipment Purchased Under Lease Purchase Agreement

Our review of digital disbursements identified a $46,333 payment to Harris Corporation
on March 6, 2008, as a down payment for the equipment. The invoice identified this
amount as one third of the equipment costs of $138,185. The $46,333 was recorded as
an equipment asset to be capitalized. The balance of the recorded expenditures,
totaling $29,788, was identified as either non-eligible expenditures ($15,717) or
unallowable expenses ($14,071). We considered the $14,071 in leased equipment
charges through September 30, 2008, as unallowable, because the lease purchase
agreement was not approved by CPB. Discussions with CPB officials disclosed that
they were not informed that the equipment was being leased. Further, KNON did not
disclose in its final report to CPB that the equipment was being obtained under a lease
purchase agreement and the final report included lease payments to be made through
June 2013. Finally, the station had not received title to the equipment. CPB officials
said the grant was given to purchase equipment.

As background, in June 2008, KNON entered into a lease purchase agreement with
Tiger Leasing, LLC to lease digital equipment over a 60 month period ending on June
30, 2013. We were told the lease was subsequently sold to Sterling Bank and the
monthly lease payments of $2,225.61 were made to Sterling Bank. At the end of the
lease as an option under the agreement the station can purchase the equipment for
$100.

We were further told that KNON had to enter into a lease agreement to finance the
purchase of the digital equipment, because the station could only raise $40,000 of the
$82,031, required as KNON’s matching share under the grant agreement to purchase
the equipment. The station said it tried to secure a loan to purchase the equipment but
given the economic times, its bank was unwilling to make the loan despite KNON’s long
relationship with the bank and history of paying past loans on time. KNON told us they
looked for alternative financing and found Tiger Leasing, who agreed to finance the
project.

KNON officials explained that the lease purchase agreement with Tiger Leasing was a
capital lease and was recorded as such. They further explained that a capital lease is
simply another form of financing the equipment and that the substance of the
transaction is a purchase not an operating lease.

While KNON argued that this was just another form of a purchase, Tiger Leasing took
title to the equipment when CPB funds were used to make the initial $46,333 down
payment to purchase the equipment. This was contrary to Sections 7 and 19 of the
Digital agreement. Section 7 states:




                                           9
   There are no third party beneficiaries of this Agreement, and no third parties shall
   have any recourse against CPB with respect hereto or to the Project.

Section 19 states:

   Grantee shall not assign or transfer its rights of obligations under this Agreement
   in whole or in part without the prior written consent of CPB. Any assignment or
   transfer or attempted assignment or transfer of rights or obligations under this
   Agreement by Grantee without the prior written consent of CPB may be deemed
   null and void, at the option of CPB.

While KNON’s accounting treatment of the capital lease may have been adequate,
under the grant agreement this matter should have been discussed with CPB and a
written consent obtained.

Our review found that the leasing company paid $96,766 for the equipment ($92,666 for
the equipment and $4,100 for shipping) and KNON would incur an additional $36,771 in
financing charges under the terms of the leasing agreement through June 2013. We
estimate that for the period where accounting records were made available to us (June
2008 – June 2010), KNON paid approximately $41,663 against the principal and
$16,202 in financing and insurance charges.

      Grant Period Not Modified

Additionally, we found no evidence that KNON requested in writing that the grant
agreement be amended to extend the grant period beyond the November 1, 2006
ending date, as required by the Digital agreement terms. The agreement period ran
from May 27, 2005 to November 1, 2006. Our review of the reported disbursements
identified that they started in 2008, over a year after the grant agreement ended on
November 1, 2006.

In response, KNON officials said that they talked with CPB officials and asked about an
extension. They said CPB told them they would fund the grant past the November 2006
ending date. However, we were not provided any documentation that KNON requested
an extension in writing, as required by Section 2 of the Digital grant agreement, or CPB
granted the extension by written note. Section 2 states:

   In no event shall the Project extend beyond the Project End Date without prior
   written approval by CPB. If any unforeseen circumstance arises that may cause
   a delay in the completion of the Project beyond the Project End Date, Grantee
   shall promptly notify CPB in writing. CPB shall have the option, to be exercised
   in CPB’s sole and exclusive discretion, to extend the Project End Date by written
   notice to Grantee.




                                           10
       Revised Final Digital Costs

In response to our preliminary finding, KNON officials identified additional eligible
expenses of $4,100 for shipping the equipment to KNON and $12,845 for the station’s
contract engineer to install the equipment. This reconstruction of KNON’s digital costs
increased the total net eligible costs to $155,944 versus the $147,731 previously
reported. In the October 9, 2008 final report submitted to CPB, the station’s contract
engineer expenses had been classified as non-eligible expenses. However, in
reviewing the engineer’s invoices, we could not distinguish the engineer’s costs for
installing the digital equipment from routine maintenance charges. As a result, we could
not determine whether all of the $12,845 qualified as eligible costs under this grant. In
KNON’s application for the digital grant, the engineer’s installation costs were budgeted
at $5,000.

Additionally, in reconstructing the total eligible costs under the digital grant, KNON’s
analysis identified that they owed CPB $3,005 under this grant. This amount was
calculated using the revised total eligible costs of $155,944 and apportioning the actual
costs by CPB’s portion of the original budget of 49 percent. The $155,944 was less
than the $162,031 in total eligible costs in the grant agreement.

Section 4.(d) of the Digital agreement states:

   Grantee . . . will return to CPB, without request, any of the Total CPB
   Commitment that has not been spent, or for which authorized liabilities have not
   been incurred, by Grantee by the Project End Date.

For audit reporting purposes, we classified the $3,005 overpaid to KNON as funds put
to better use.

       Recording CPB Digital Receipts

Our review also identified that CPB digital receipts were not properly handled by KNON
officials. We identified that the initial CPB Digital payment of $37,500 was properly
recorded in the CPB bank account maintained by CCI in May 2006. However, the
second payment of $42,500 was not deposited into a CCI maintained bank account or
initially recorded in the accounting system by CCI. It was deposited into a bank account
established by KNON in December 2008. This bank account was not reflected in the
official accounting records maintained by CCI through April 2009. It was subsequently
accounted for when the new accounting service took over in April 2009. The new
accounting service added the KNON bank account to its reconstructed accounting
records beginning in January 2009. The account’s opening balance in January 2009
was $42,466.

Discussions with station officials indicated that they had lost confidence in CCI’s ability
to use the second CPB payment of $42,500 funds for the digital equipment and set-up
their own account to make their future monthly lease payments. Review of the 2009

                                             11
and 2010 accounting records identified that $44,806 was paid to Sterling Bank under
the terms of the lease agreement from October 2008 through June 2010.

While not initially recording the receipt of CPB’s $42,500 payment in CCI’s accounting
records was a violation of the CPB grant agreement to maintain accounting records in
accordance with generally accepted accounting practices, the Treasurer of the Board
informed us that the Board authorized the General Manager to set-up this new bank
account. However, we could not verify this approval because the Board’s decision was
not memorialized in any Board minutes or correspondence.

Our concern remains that any off the books transaction creates vulnerabilities for fraud,
waste, and abuse and should be avoided. While station officials countered that these
funds were properly addressed by its new accountant in 2009 and were reflected in its
calendar year 2008 financial statement audit report issued in June 2009, there was a
period of time during the transition between accounting service providers (December
2008 – April 2009), where these funds were not accounted for in the official accounting
records.

      Related Party Charges Not Supported By Adequate Documentation

We found that KNON paid for administrative services provided by related parties totaling
$59,030 without adequate supporting documentation. We questioned CPB’s portion of
these costs totaling $19,778, because without supporting documentation we could not
properly evaluate the reasonableness of the costs. These costs were allocable to the
CSG grant, because discrete accounting records were not maintained over the CSG
funds. Discussions with CCI officials indicated that these charges were allocations of
related party costs spread equitably among its clients based on their respective
budgets.

CPB’s General Provisions and Eligibility Criteria, Section 10, B. Record Keeping and
Audit Requirements require:

      … discrete accounting and proper documentation shall be maintained to support
      all FY 2007 CSG revenues and expenditures. All CSG expenditures must meet
      the test of allowability as stated throughout this document and as provided by all
      other CSG-related documents and policies. CSG funds which cannot be
      accounted for because of recipient’s failure to comply with this requirement may
      be subject to repayment to CPB.

We are questioning CPB’s portion of these charges totaling $19,778 because there was
no documentation (e.g., current agreements for services with explanation of rates
charged) to support the validity of the services provided and the reasonableness of the
amounts charged, per the following table.




                                           12
                              Related Party Questioned Costs

                                                      CPB Allocation         Questioned
                             Related Party Costs          Rate4                Costs
Total FY 2008 Costs                      $59,030
CPB Account Direct                        $3,924                  100%                $3,924
Charges
         Net Total                        $55,106               28.77%               $15,854
Total Questioned Costs                                                               $19,778

KNON utilized the services of a number of different related parties for a variety of
administrative services, e.g., accounting, legal, facilities, telephone, internet, human
resources, FCC assistance, etc. These services were charged monthly to KNON’s
accounts by CCI. During FY 2008, KNON paid $59,030 to related parties as shown in
Exhibit E without adequate documentation or support.

The documentation provided to support these charges was not adequate to attest to its
reasonableness, particularly when you consider the less than arm’s length relationships
inherent in related party transactions. KNON did not receive a monthly bill for the
services provided; CCI just recorded the charges to KNON’s accounting records. We
could not verify what services were provided, how the charges were calculated, and
whether the basis for calculating the charge was equitably distributed amongst the
related party’s clients.

To illustrate, the CCI agreement provided to support CCI charges was dated January 1,
1983 and specifically covered only accounting and bookkeeping services. The
agreement did not address legal or other general services charged by CCI to KNON.
KNON officials did not have copies of agreements with ACORN, AI Communications, or
AM/FM for the services charged to KNON in the accounting records. Based on our
work, we could not determine whether the 1983 fees were still in effect during our audit
period. It is our understanding that KNON officials relied on CCI and the other related
parties to provide various administrative services.

       Questionable Internet Service Acquisition Grant Expenses

KNON reported expending $19,318 on the ISA Grant even though this was only a
$15,000 grant. However, based on information provided by KNON officials and our
review of the accounting records and invoices, we could only identify $10,578 in
expenditures. Our review of these expenditures identified $9,249 in questionable costs.
This total coupled with the undocumented expenditures reported ($15,000 - $10,578 =
$4,422) results in total questioned costs of $13,671.

The terms of the ISA agreement require grantee’s to acquire services from vendors not
related to the station’s licensee. Qualified services or service providers include: national

4
  Related party costs paid from CPB bank account were questioned at a 100% rate, and the net total
related party costs were questioned at a 28.77% rate ($199,964 CPB CY 08 income/ $694,938 total CY
2008 AFR revenues).

                                                13
or regional website content providers, application service providers, website content
management or design services and internet streaming providers. Further, the ISA
Grant funds were not to be spent to reimburse the grantee or its licensee for station staff
or internal expenses incurred in creating a standalone station website. In announcing
this grant program to rural and minority radio stations, CPB said that the purpose of the
ISA Grant program was designed to help stations use state-of-the-art web technology to
“enhance service” to their listeners. CPB’s vision was to improve the stations’ web
presence to enhance station outreach, deepen community relationships, improve public
transparency and accountability; and offer listeners an easy and secure way to support
stations financially.

Our audit of the recorded expenditures of $10,578, determined that $9,249 of these
funds were used for services that did not meet the requirements of the grant program.
They were either related third party administrative service charges (i.e., $274 in services
provided by the ACORN Institute) or were not related to enhancing existing internet
services totaling $8,975. The internet streaming service provider’s contract was
initiated several years before KNON applied for the ISA grant and did not meet the
purpose of the program to enhance internet services over previously existing station
services. For some of the undocumented reported expenditures of $4,422, KNON
officials provided invoices for services provided by the ACORN Institute totaling $1,519.
However, these invoices did not agree with the $274 in ACORN expenditures recorded
in CCI’s accounting records.

Regarding the internet streaming expenses, KNON officials said they were ready to
cancel the contractor’s service agreement because of the cost. However, upon
receiving the grant they felt keeping the service was appropriate, since the streaming
had enhanced the website, promoted the station, provided a service to listeners, and
generated some donations. In our judgment, continuing this service did not increase
the level of service already being provided to the station’s listeners.

       Recommendations

2) We recommend that CPB:

   a) evaluate whether the principal paid under the digital lease purchase agreement
      qualifies under the grant agreement ($54,292 questioned as CPB’s portion of the
      grant);

   b) require KNON to submit a revised final report to CPB reporting all eligible digital
      costs;

   c) require KNON to evaluate the station’s contract engineer’s invoices to isolate his
      costs to install the digital equipment from routine station maintenance costs and
      include installation costs in the final revised digital cost report submitted to CPB;




                                            14
   d) recover at least the $3,005 overpayment made to KNON based on the net total
      eligible costs incurred by KNON to purchase the equipment; and

   e) ensure future final payments only reimburse grantees for CPB’s portion of agreed
      upon costs.

3) We recommend that CPB require KNON to:

   a) refund $32,024 in questioned costs for related party costs ($18,353) and ISA
      expenses ($13,671).

   b) institute controls to ensure CPB grant funds are expended on allowable activities;

   c) ensure future CPB administrative service costs, supplied by related parties, are
      supported by current agreements that establish the methods used to determine
      the rates charged to KNON, specify the services provided, and the
      reasonableness of the costs billed (i.e., rates were consistently applied to all
      clients and can be verified to current market rates); and

   d) formally request grant agreement periods be modified when grant performance
      cannot be accomplished within the specified grant agreement period.

      Management Response

KNON officials provided the following responses to these recommendations.

Recommendation 2(a): While this recommendation was directed to CPB they reiterated
that KNON was unable to obtain enough matching funds from other sources and had no
choice but to finance the purchase of the equipment. They acknowledged that the grant
indicated that they should have obtained written approval from CPB for the financing
arrangement. Further, in the interest of fairness and CPB’s desire to get community
radio stations to convert to digital, the $54,292 should qualify under the grant.

Recommendations 2(b) & (c): KNON’s contract engineer revised his invoices to identify
his costs to install the digital equipment. His revised costs are included in the revised
final report submitted to CPB, dated September 24, 2010, for the Digital Conversion
Grant.

Recommendation 2(d): KNON agreed that CPB overpaid KNON for the Digital
Conversion Grant and based on the contract engineer’s revised invoices agrees to
repay CPB $3,626.

Recommendation 2(e): KNON said this recommendation was directed to CPB and they
could not address how CPB would ensure they only reimburse grantees for agreed
upon costs.



                                           15
Recommendation 3(a): KNON disagree with the related party questioned costs of
$18,353 based on their reconstruction of their FY 2008 CSG expenditures and the
$13,671 in questioned ISA costs. They acknowledged questionable ISA grant
expenditures of $4,696.

Regarding the questioned related party costs, they said that in reconstructing their FY
2008 accounting records for CSG expenditures they did not allocate any of the related
party costs identified in the audit to the CSG grant. They said their reconstruction of
CSG expenses was based on allocating expenses the station manager intended to pay
with the CSG funds. Their response also challenged the 28.77 percent rate used in the
audit report to calculate the questioned related party costs, citing the AFR only reported
$142,209 in funds received in CY 2008 and not the $199,964 cited in the audit report.
Their response went on to argue that at the most the report should have questioned
$8,592 based on KNON’s calculation rate of 14.35 percent.

While their response acknowledged that KNON did not have current contracts
specifying all the services received and fees paid to the related parties, they said the
arrangement for the services had been in place for several years and complacency did
become the norm. They said that at different times, KNON did consider changing to
different service providers but did not take any action before 2009. They said they did
generally evaluate the services received for the fees paid. They felt the fees charged
were reasonable for the most part and presented their rationale for accepting these
costs by service provider.

Regarding ISA questioned costs; they argued that the payments for streaming services
were qualified expenditures of $8,975 under the grant agreement. They said while CPB
may have intended the Internet Service Acquisition Fund to make grants for the
“Enhancement” of internet services, CPB’s grant agreement did not mention
enhancement. Therefore, it would be unfair for CPB to disallow their internet streaming
costs, because KNON was paying for the service before the grant was received. Their
response did acknowledge that they had reported $4,696 in unqualified expenditures.
They submitted a revised Internal Services Acquisition Fund Grant Report to CPB,
dated September 24, 2010, identifying unspent funds of $4,696.

Recommendation 3(b): On September 18, 2010, the KNON Board of Directors adopted
a policy on cash controls, including CPB grant agreements and expenditures. This
policy calls for grant agreements to be reviewed and approved by the Board of Directors
before being signed by the station manager, expenses to be paid for by grants to be
generally outlined in budgets approved by the board, monthly detailed reports on the
status of each open grant will be presented to the Board at each monthly meeting, and
KNON’s accounting service provider will become familiar with grant requirements and
question any expenditures they have doubts about. Finally, each Board member has
been provided with a copy of CPB’s FY 2010 CSG General Provisions and Eligibility
Criteria.




                                            16
Recommendation 3(c): KNON no longer has any related party service providers. All
services for accounting, internet, telephone, website, legal, payroll, health insurance,
and human resource assistance are now provided by unrelated parties.

Recommendation 3(d): KNON said the most important lesson learned from this audit
was to understand the grant requirements and adhere to each and every requirement.
They will never again rely on any oral communication with CPB and will formally request
in writing that the grant agreement period be modified when grant performance cannot
be accomplished within the specified grant agreement period.

A more detailed discussion of KNON’s disagreements with the findings in this report is
presented in their written response to the draft report in Exhibit G. The documentation
accompanying KNON’s written response was too voluminous to attach to this report, but
is available upon request from the Office of Inspector General.

       OIG Review and Comment

Based on KNON’s response, we consider recommendations 3(b), 3(c), and 3(d)
resolved but open pending CPB’s final management decision on KNON’s corrective
actions. We consider recommendations 2(a) - 2(e), and 3(a) unresolved, as explained
by recommendation.

Recommendation 2(a): This recommendation addressed the $54,292 questioned
because KNON did not obtain CPB’s written consent to assign or transfer the rights to
the digital equipment purchased under this agreement to a third party. This
recommendation remains unresolved until CPB officials make a management decision
on the allowability of the costs associated with the lease purchase agreement entered
into by KNON.

Recommendation 2(b): While KNON submitted a revised final report for the Digital
Conversion Grant reporting total eligible costs of $159,686 versus the previously
reported $152,731, we could not trace the reported additional costs to an itemized
accounting of digital expenses provided to us by KNON prior to issuance of the draft
report. As a result, this recommendation remains unresolved until CPB officials make a
management decision on the allowability of the lease purchase agreement and CPB
obtains an accounting for the additional eligible costs reported by KNON.

Recommendation 2(c): Previously, KNON reported contract engineer costs of $12,845;
the revised digital report only identified $11,587 in costs, a $1,258 difference. The
revised invoices submitted by the contractor only identified a difference of $1,058.
Further, it appears that the contractor’s monthly retainer fee of $200 was not adjusted
from the digital grant billings for August and September of 2008. As a result, this
recommendation remains unresolved until the inconsistencies are resolved by KNON to
CPB’s satisfaction.




                                            17
Recommendation 2(d): While KNON agreed to refund $3,626 in overpaid CPB funds
under the Digital Conversion Grant; based on the response we could not verify that this
is the correct overpayment amount. As a result, this recommendation remains
unresolved until CPB makes a management decision on the allowability of reported
costs under this grant.

Recommendation 2(e): This recommendation was addressed to CPB management and
remains unresolved until CPB makes a management decision.

Recommendation 3(a): Regarding the related party questioned costs of $18,353,
KNON stated that they reconstructed their CSG expenditures for FY 2008 and did not
include any related party costs in their reconstruction. Regarding KNON’s
reconstructed costs, during our initial fieldwork we tested selected charges for national
programming that were included in their reconstructed costs. We also tested nine
transactions totaling $16,265 in unrestricted expenditures that were also included in
their reconstructed CSG costs.

Regarding KNON’s challenge of the calculation of related party questioned costs using
a 28.77 percent rate; KNON argued that this rate was inaccurate because they only
reported $142,209 in CPB income during CY 2008 on its AFR. However, our audit of
CPB’s records showed that CPB paid KNON a total of $199,964 during CY 2008.
These payments included a $5,000 ISA payment in October 2008 and $48,625 FY 2009
CSG payment in November 2008. Further, our audit of KNON’s AFR showed they
under reported FY 2008 CSG revenues by $4,130. As a result, we do not believe the
reported 28.77 percent rate was inaccurate.

Regarding the reasonableness of related party costs questioned, aside from the
accounting services provided to KNON, we have no documentation of what services
were provided by the related parties to begin to assess their reasonableness.
Regarding the accounting service charges, we could not verify how CCI billed for their
accounting services and whether that billing was consistent with the charges made to
other clients. Since we were dealing with related party transactions, the equitable
distribution of the accounting service provider’s costs among its clients was critical in
our assessment of the reasonableness of these charges.

Regarding the ISA payments made for internet streaming totaling $8,975, CPB’s
correspondence to the stations announcing the ISA grants program explained the intent
of the program, which was to use state-of-the-art web technology to increase service to
their listeners. They also explained that improving station’s web presence would also
enhance station outreach, deepen community relationships, improve public
transparency and accountability; and offer listeners an easy and secure way to support
stations financially. Since a continuation of KNON’s existing internet services
agreement did not improve or enhance existing services at the time of the grant award,
we consider this recommendation unresolved pending CPB’s management decision on
the allowability of these charges.



                                            18
Lack of Documentation or Procedures Showing Compliance with
Communications Act Requirements
KNON was in compliance with various statutory provisions of the Act. These provisions
included conducting open meetings of its Board of Directors (BOD); establishing an
active CAB; making open financial records available to the public; making EEO
information available to the public; and maintaining and securing donor lists. While we
found KNON in compliance with the specific requirements, KNON officials had not
prepared documentation or implementing procedures explaining how they complied with
the requirements of the Act.

CPB’s Certification Requirements for Station Grant Recipients provides the following
requirements on documentation and written procedures for Open Meetings, Open
Financial Records, CAB, EEO and Donor List and Political Activities. Each recipient of
a CPB station grant shall develop documentation explaining how the station complies
with these requirements. This documentation should address the procedures for
conducting open meetings and the methods used to give reasonable notice to the
public; the types of financial and EEO information to be made available to the public,
including the mechanisms used to give the public access to this information; the
establishment, composition, role, and position of the community advisory board relative
to the organization of the station; and how the station complies with donor list and
political activity restriction requirements. This documentation shall be kept by each
station at a reasonable location and made available to CPB, upon request, to determine
the fact and extent of compliance with these requirements.

These procedures should specify how the station actually goes about complying with
each of the five sections of the certification requirements. These procedures are
necessary to provide the public with information they can use to understand how the
station complies with these grant responsibilities.

In response to this finding KNON officials said they were aware of the various statutory
requirements of the Act, but did miss the requirement to prepare documentation to
explain how they complied. KNON officials acknowledged the need to comply with
these requirements.

      Recommendation

4) We recommend that CPB require KNON management to establish written
   implementing policies on the station’s practices for all of the Act’s requirements,
   including open meetings, maintaining open financial records, maintaining a
   functioning CAB, making EEO information available to the public, and maintaining
   and securing donor lists.




                                           19
       Management Response

In response to Recommendation 4, KNON officials said that they were unaware of
CPB’s documentation and written procedures requirements for Open Meetings, Open
Financial Records, CAB, EEO and Donor list and Political Activities. Responding to this
recommendation KNON’s Board adopted written policies at their September 18, 2010
Board meeting to address:

   •   Open Meetings;
   •   Open Financial Records;
   •   Community Advisory Board;
   •   Equal Employment Opportunity;
   •   Donor Information, Security, Privacy, and Political Lists; and
   •   Document Retention.

They said the approved policies and procedures have been placed in the KNON public
file for public viewing.

   OIG Review and Comment

Based on KNON’s response, we consider Recommendation 4 resolved but open
pending CPB final management decision on KNON’s corrective actions.

Need for Further Governance Improvements

Our review identified that station officials had limited knowledge of CCI’s accounting
practices and that CCI relied upon its independent public accountant (IPA) to prepare
the Annual Financial Report submitted to CPB. Further, station officials had not
established the necessary oversight controls to ensure that the work performed by its
accounting service CCI adequately met CPB’s General Provisions and Eligibility Criteria
for Radio CSGs. Further, KNON management officials did not provide adequate
oversight of its performance under the Digital and ISA grants and to ensure these grants
were fully accounted for in the accounting records.

Review of Board meeting minutes for June of 2008 identified concerns about the
financial services provided by CCI. These concerns surfaced during the meeting
following the disclosure by CCI that $22,857 in KNON funds had been embezzled by a
former CCI official in 2000. Arrangements were made to restore these funds to KNON
and were subsequently repaid by CCI in October 2008. While CCI did not respond to
KNON’s inquiries about interest being paid on the embezzled funds, KNON booked
$9,998 as an interest receivable. This total was subsequently netted against funds due
ACORN of $5,963, for a net interest receivable of $4,035. This amount was
subsequently booked to the Reserve for Doubtful Accounts in December 2009 when
recovery appeared unlikely with the closure of CCI.



                                            20
In response to the reported embezzlement, KNON officials passed a Board Resolution
in June of 2008 requiring CCI to provide KNON with monthly copies of bank statements
and their reconciliations, a summary trial balance, and a detailed general ledger report.
While CCI did improve somewhat in providing the information requested, the information
was not provided timely and the Board decided to find a new accountant in February of
2009. They subsequently hired a local accounting service that began work in April
2009.

KNON officials explained that the new accounting provider records all deposits,
reconciles the bank statements, and prepares monthly detailed financial statements for
the Board and station management. The accounting service also processes all
payables and issues checks for approval to station management and the Board’s
Treasurer. KNON officials handle all funds received and make deposits to the local
bank account, records pledge receipts in the pledge database, receives invoices and
forwards them to the accounting service for processing, and approves all payments
made by the station. Because the new accounting services were implemented after our
audit period, we did not evaluate whether they fully met CPB requirements for discrete
accounting.

The station also adopted several governance policies following the new IRS Form 990
requirements in February 2009. These included a Conflicts of Interest Policy,
Whistleblower Policy, and Document Retention and Destruction Policy.

During our audit period, station management prepared weekly “allocations” forms to
document local revenues and invoices received at the station. This information was
transmitted to CCI in New Orleans for further processing. However, CCI did not always
use the KNON prepared allocations forms to records costs against funding sources, as
instructed by KNON. KNON officials were not aware that this information was not
always being used by CCI to record station activities.

In addition to the local revenues and invoices received from KNON; CCI also received
revenues for the station directly from grantees and invoices from various vendors that
were not processed by KNON officials. As a result, KNON officials were not fully aware
of how this information was being recorded to ensure accountability by funding source
and how this information may have been reported to granting agencies, e.g., CPB. As
previously discussed, we could not identify CSG, Digital, and ISA grant expenditures in
the CCI accounting records and we had to rely on KNON officials to identify
expenditures under the Digital and ISA grants.

The Board is ultimately responsible for ensuring that CPB grant requirements are
complied with; however, we observed that the station relied on CCI to account for its
CPB activities and report financial information to CPB on the AFR. While the AFR
information was finalized by CCI for input to CPB, the financial information reported was
prepared by the IPA. Both CCI and KNON officials accepted the AFR schedules
prepared by the IPA without revision. We were advised by the IPA that KNON Board
never requested to be briefed on his audit work during our audit period.

                                           21
The AFR information should be prepared by KNON officials using financial information
obtained from its accounting system. The IPA cannot be involved in the preparation of
the AFR because such actions would compromise the IPA’s independence to opine on
the AFR attestation provided to CPB.

In addition to its financial responsibilities, the Board is also responsible for overseeing
compliance with CPB grant requirements under the Act. As discussed in our Act
findings, neither the Board or station officials had established operating policies for
ensuring compliance with the Open Meeting, Open Financial Records, CAB, EEO, and
Donor Lists requirements under the Act. While the Board had no formal mechanism to
oversee how the station complied with these requirements, it annually certified to CPB
that it had complied with the Act’s and CPB requirements.

While KNON has now changed accounting service providers and is receiving better
financial information, we are not clear how these new practices will ensure CPB funds
are; (1) properly accounted for using discrete accounting; (2) used for only allowable
purposes; and (3) properly documented in accordance with CPB grant requirements.
Further, controls have to be implemented to ensure future CPB payments are recorded
timely in the accounting records to avoid repeating what happened when the December
2008 $42,500 Digital grant payment was received. This deposit was not immediately
recorded in the official accounting records maintained by CCI. It was not recorded in
the accounting records until the new accountant took over the recordkeeping in April
2009.

In response to our finding that the IPA prepared the station’s AFR during our audit
period, KNON officials disagreed. KNON officials said that it was their belief that CCI
had prepared the AFRs during prior periods. However, our work identified that the IPA
prepared the schedules presented on the AFR.

       Recommendations

5) We recommend that CPB determine whether the current governance mechanisms
   are adequate and the licensee has instituted sufficient corrective actions to continue
   as a CPB grant recipient.

6) We recommend that CPB require the KNON Board and station officials to:

   a) Establish controls to ensure CPB funds are only expended on allowable
      activities.

   b) Discontinue the practice of having its IPA prepare its AFR. The IPA is
      responsible for independently attesting to its accuracy.

   c) Establish controls over the AFR preparation to ensure KNON officials prepare the
      AFR in accordance with CPB financial guidelines.



                                             22
       Management Response

KNON’s officials provided the following responses to these recommendations.

Recommendation 5: While this recommendation was directed to CPB, KNON officials
said that it had in the past relied too heavily on its outside contractors. That reliance
began to change before the audit was started and they have taken corrective actions to
address each recommendation in this report.

Recommendation 6 (a): KNON officials stated that at the September 18, 2010 Board
meeting, the Board adopted a policy outlining cash controls, including CPB grant
agreements and expenditures. Among other things, the policy calls for:

   •   all grant agreements to be reviewed and approved by the Board before being
       signed by the station manager;
   •   all expenses paid for by grants to be at a minimum generally outlined in budgets
       approved by the Board:
   •   Monthly detailed reports on the status of each open CPB grant will be presented
       to the Board:
   •   the accounting company to be familiar with the CPB grant requirements and to
       question any expenditures they have doubts about.

Recommendations 6 (b) and 6 (c): KNON officials stated that the Board understood the
need for independence and will make it clear that the independent auditor is not to
prepare the AFR. The station manager will prepare the AFR from the audited financial
statements with assistance, as needed, from accounting service provider and the KNON
Treasurer. The KNON Treasurer is qualified to prepare the report correctly.

       OIG Review and Comment

Based on KNON’s response, we consider recommendation 5 unresolved and
recommendations 6 (a) - 6 (c) are resolved but open pending CPB’s management
decision on KNON’s corrective actions.




                                           23
                                                                           Exhibit A


                   Schedule of CPB Payments to KNON
     For Internet Service Acquisition Grant, Digital Conversion Grant and
                   FY 2008 Radio Community Service Grant
                        (October 1, 2007 – September 30, 2008)


Payment Date      Grant Type        Unrestricted        Restricted         Total

   2/1/05      Internet Service
               Acquisition Grant                   $0            $10,000      $10,000
  10/2/08            ISA                                           5,000        5,000
                  ISA Total                                      $15,000      $15,000

   5/3/06      Digital Conversion                                $37,500      $37,500
  11/6/08      Digital Conversion                                 42,500       42,500
                 Digital Total                                   $80,000      $80,000

  1/14/08        FY 2008 CSG               $38,067               $14,688      $52,755
   8/4/08        FY 2008 CSG                36,862                14,222       51,084

                FY 2007 Total              $74,929               $28,910     $103,839

                 Total Grants              $74,929           $123,910        $198,839




                                         24
                                                                         Exhibit B


             KNON Annual Financial Report
                Year Ending December 31, 2008

Line                        Description                   2008


        Schedule A, Source of Income:
1.      Amounts provided directly by federal government     $        0
2.A.    CPB-CSG                                                 72,791
2.B.    CPB-digital Project Grants                              42,500
2.C.    CPB-Restricted CSG                                      26,918
2.I.    Other PBE funds                                         14,400
8.      Foundation and nonprofit associations                     500
9.      Business and Industry                               127,611
10.     Memberships and subscriptions                       232,525
14.A.   Gross special fundraising activities                129,935
15.     Passive Income                                           3,520
18.     Capital fund contributions                              43,931
20.     Other Direct Revenue                                      307
21.     Total Revenue                                      $694,938


         Adjustments to Revenue
22.     Federal revenue                                          $   0
23.     Public broadcasting revenue                         156,609
26.B    Special fundraising event expenses                      93,063
27.     Total Direct Nonfederal Financial Support          $445,266


        Schedule E, Expenses:
         Program Services
1       Programming and production                         $293,039
2       Broadcasting and engineering                        131,271
3       Program information and promotion                        7,973
         Support Services
4       Management and general                                  75,506
5       Fund raising and membership development                 93,063
6       Underwriting and grant solicitation                 114,954
7       Depreciation and amortization                                0
        Total Expenses                                     $745,806


        Investment in Capital Assets
        Total capital assets purchased or donated          $182,930
        Total expenses & investment in capital assets      $928,736




                                      25
                                                                     Exhibit C


KNON Summary of Non-Federal Financial Support 2008
Certification by Head of Grantee and Independent Accountant’s Report

       Line                      Description              2007


              Summary of Non-Federal Financial Support:
       1      Direct Revenue (Schedule A)                 $445,266
       2      Indirect Administrative (Schedule B)               0
       3      In-Kind Contributions (Schedule C)
       3a      Services and Other Assets (Schedule C)            0
       3b      Property and Equipment (Schedule D)               0
       4      Total Non-Federal Financial Support         $445,266




                                         26
                                                                   Exhibit D


                      Analysis of Questioned Costs


        CPB Grant Type               Total Questioned Costs

Digital Conversion Grant
 Unallowable Costs                                            $54,292

CSG - Unrestricted
 Lack of Documentation                                        $19,778

Internet Service Acquisition
  Unallowable Costs                                            $9,249
  Lack of Documentation                                        $4,422

              Total                                           $87,741




                                27
                                                                    Exhibit E


 Related Party Expenses (Oct. 1, 2007 – Sept. 30, 2008)
Related Party          FY 2008         Administrative Activities

ACORN                      $1,337   Campaign & program services
AI Communications
(ACORN Institute)            986    Telephone, internet & website
Network Council Fees
(AM/FM)                    28,756   Networking services to corporation
CCI Accounting             18,332   Accounting services
CCI Legal                   2,934   Legal services
CCI General                 6,685   Other administrative services
          Total           $59,030




                           28
                                                                             Exhibit F


                            Scope and Methodology

We performed an examination to determine KNON’s adherence to the requirements of
the CPB Financial Reporting Guidelines, Generally Accepted Accounting Principles,
provisions of the Act, and CPB grant provisions and certification requirements. The
scope of the examination included reviews and tests of the data reported by the station
on the 2008 AFR and audited financial statements. We examined KNON’s compliance
with the Act and Certification Requirements for CPB station grant recipients. We
examined expenses for the Community Service Grant, Digital Conversion Grant and
Internet Service Acquisition Grant to determine if expenses incurred were allowable in
accordance with the terms and conditions of the grants. Our examination of
expenditures was limited by the lack of discrete accounting for CSG revenues and
expenditures by grant. This limited our ability to verify that CSG funds were fully
expended within the two year grant period or identify expenditures incurred under the
Digital and ISA grants.

We conducted a risk assessment using the information presented on KNON’s FY 2008
AFR and audited financial statements. As part of our risk assessment, we gained an
understanding of internal controls established by KNON for preparation of the AFR,
recording revenue, and approving expenditures. We met with CCI’s IPA and reviewed
copies of the IPA’s working trial balance and certain supporting schedules used to
prepare the audited financial statements. Our risk assessment was used to plan our
detailed testing.

Specifically, we tested the accuracy of the AFRs by comparing the report to KNON’s
underlying accounting records and audited financial statements. We evaluated
compliance with CPB’s Financial Reporting Guidelines, in part, by reviewing KNON’s
determination of revenue when computing its NFFS. We reviewed documentation
supporting revenue reported on the FY 2008 AFR, for pledge contributions and
underwriting. We tested nine underwriting agreements totaling $4,475. Without
discrete accounting of CSG expenditures, we had to sample from all KNON expense
transactions to verify they were used for public broadcasting purposes. We
judgmentally reviewed 95 invoices totaling $102,717 supporting KNON’s allocation
worksheets submitted to CCI of local station expenditures to determine whether the
expenses were appropriate and allowable. CCI presented us with a listing of Digital
Conversion Grant and Internet Service Acquisition grant expenditures. We also
reviewed the trial balances and supporting detailed transactions provided by CCI.

Our examination was performed in accordance with Government Auditing Standards,
for attestation engagements. We conducted our examination fieldwork during May 2009
and obtained additional information, as needed, through August 2010 to prepare our
report.


                                           29
